<html>
<title> - EXPRESSING THE SENSE OF THE HOUSE OF REPRESENTATIVES WITH RESPECT TOWARD THE ESTABLISHMENT OF A DEMOCRATIC AND PROSPEROUS REPUBLIC OF GEORGIA AND THE ESTABLISHMENT OF A PEACEFUL AND JUST RESOLUTION TO THE CONFLICT WITH GEORGIA'S INTERNATIONALLY RECOGNIZED BORDERS</title>
<body><pre>[House Hearing, 112 Congress]
[From the U.S. Government Publishing Office]



 
   EXPRESSING THE SENSE OF THE HOUSE OF REPRESENTATIVES WITH RESPECT 
  TOWARD THE ESTABLISHMENT OF A DEMOCRATIC AND PROSPEROUS REPUBLIC OF 
GEORGIA AND THE ESTABLISHMENT OF A PEACEFUL AND JUST RESOLUTION TO THE 
       CONFLICT WITH GEORGIA'S INTERNATIONALLY RECOGNIZED BORDERS

=======================================================================


                                 MARKUP

                               BEFORE THE

                   SUBCOMMITTEE ON EUROPE AND EURASIA

                                 OF THE

                      COMMITTEE ON FOREIGN AFFAIRS

                        HOUSE OF REPRESENTATIVES

                      ONE HUNDRED TWELFTH CONGRESS

                             SECOND SESSION

                                   ON

                              H. Res. 526

                               __________

                             APRIL 26, 2012

                               __________

                           Serial No. 112-165

                               __________

        Printed for the use of the Committee on Foreign Affairs


Available via the World Wide Web: http://www.foreignaffairs.house.gov/ 
                                  or 
                       http://www.gpo.gov/fdsys/

                                 ______




                  U.S. GOVERNMENT PRINTING OFFICE
74-004                    WASHINGTON : 2012
-----------------------------------------------------------------------
For sale by the Superintendent of Documents, U.S. Government Printing 
Office Internet: bookstore.gpo.gov Phone: toll free (866) 512-1800; DC 
area (202) 512-1800 Fax: (202) 512-2104  Mail: Stop IDCC, Washington, DC 
20402-0001



                      COMMITTEE ON FOREIGN AFFAIRS

                 ILEANA ROS-LEHTINEN, Florida, Chairman
CHRISTOPHER H. SMITH, New Jersey     HOWARD L. BERMAN, California
DAN BURTON, Indiana                  GARY L. ACKERMAN, New York
ELTON GALLEGLY, California           ENI F.H. FALEOMAVAEGA, American 
DANA ROHRABACHER, California             Samoa<greek-l>
DONALD A. MANZULLO, Illinois         DONALD M. PAYNE, New Jersey--
EDWARD R. ROYCE, California              deceased 3/6/12 deg.
STEVE CHABOT, Ohio                   BRAD SHERMAN, California
RON PAUL, Texas                      ELIOT L. ENGEL, New York
MIKE PENCE, Indiana                  GREGORY W. MEEKS, New York
JOE WILSON, South Carolina           RUSS CARNAHAN, Missouri
CONNIE MACK, Florida                 ALBIO SIRES, New Jersey
JEFF FORTENBERRY, Nebraska           GERALD E. CONNOLLY, Virginia
MICHAEL T. McCAUL, Texas             THEODORE E. DEUTCH, Florida
TED POE, Texas                       DENNIS CARDOZA, California
GUS M. BILIRAKIS, Florida            BEN CHANDLER, Kentucky
JEAN SCHMIDT, Ohio                   BRIAN HIGGINS, New York
BILL JOHNSON, Ohio                   ALLYSON SCHWARTZ, Pennsylvania
DAVID RIVERA, Florida                CHRISTOPHER S. MURPHY, Connecticut
MIKE KELLY, Pennsylvania             FREDERICA WILSON, Florida
TIM GRIFFIN, Arkansas                KAREN BASS, California
TOM MARINO, Pennsylvania             WILLIAM KEATING, Massachusetts
JEFF DUNCAN, South Carolina          DAVID CICILLINE, Rhode Island
ANN MARIE BUERKLE, New York
RENEE ELLMERS, North Carolina
ROBERT TURNER, New York
                   Yleem D.S. Poblete, Staff Director
             Richard J. Kessler, Democratic Staff Director
                                 ------                                

                   Subcommittee on Europe and Eurasia

                     DAN BURTON, Indiana, Chairman
ELTON GALLEGLY, California           GREGORY W. MEEKS, New York
GUS M. BILIRAKIS, Florida            ELIOT L. ENGEL, New York
TIM GRIFFIN, Arkansas                ALBIO SIRES, New Jersey
TOM MARINO, Pennsylvania             THEODORE E. DEUTCH, Florida
JEAN SCHMIDT, Ohio
TED POE, Texas
                            C O N T E N T S

                              ----------                              
                                                                   Page

                               MARKUP OF

H. Res. 526, Expressing the sense of the House of Representatives 
  with respect toward the establishment of a democratic and 
  prosperous Republic of Georgia and the establishment of a 
  peaceful and just resolution to the conflict with Georgia's 
  internationally recognized borders.............................     2
  Amendment in the nature of a substitute to H. Res. 526 offered 
    by the Honorable Dan Burton, a Representative in Congress 
    from the State of Indiana, and chairman, Subcommittee on 
    Europe and Eurasia...........................................    10

                                APPENDIX

Markup notice....................................................    26
Markup minutes...................................................    27
The Honorable Dan Burton, a Representative in Congress from the 
  State of Indiana, and chairman, Subcommittee on Europe and 
  Eurasia: Prepared statement....................................    28
   EXPRESSING THE SENSE OF THE HOUSE OF REPRESENTATIVES WITH RESPECT 
  TOWARD THE ESTABLISHMENT OF A DEMOCRATIC AND PROSPEROUS REPUBLIC OF 
GEORGIA AND THE ESTABLISHMENT OF A PEACEFUL AND JUST RESOLUTION TO THE 
       CONFLICT WITH GEORGIA'S INTERNATIONALLY RECOGNIZED BORDERS

                              ----------                              


                        THURSDAY, APRIL 26, 2012

                  House of Representatives,
                Subcommittee on Europe and Eurasia,
                              Committee on Foreign Affairs,
                                                    Washington, DC.
    The subcommittee met, pursuant to notice, at 2:30 p.m., in 
room 2172 Rayburn House Office Building, Hon. Dan Burton 
(chairman of the subcommittee) presiding.
    Mr. Burton. The subcommittee will come to order. Pursuant 
to notice, the subcommittee meets this morning to mark up a 
strongly bipartisan measure, H. Res. 526, Expressing the sense 
of the House of Representatives with respect toward the 
establishment of a democratic and prosperous Republic of 
Georgia and the establishment of a peaceful and just resolution 
to the conflict with Georgia's internationally recognized 
borders.
    Without objection, we will consider en bloc the resolution 
and the bipartisan manager's amendment, Burton amendment 46, 
that was sent to your offices on Wednesday and that all members 
have in front of them.
    So without objection, the resolution and the manager's 
amendment are considered read and open for amendment at any 
point.
    [H. Res. 526 and the amendment in the nature of a 
substitute offered by Mr. Burton follow:]<greek-l>H. Res. 
526 deg.
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>


    Mr. Burton. All members are given leave to insert written 
remarks into the record, and I will now recognize members--I 
will start with myself--to make opening statements on this.
    As chairman of this subcommittee, I led a bipartisan 
delegation to Georgia, where we engaged with Georgia's 
President, Prime Minister, parliamentarians, and various 
ministers of the current government. Our conversations were 
widespread, and included the country's ongoing democratic and 
economic reforms, as well as the need for greater cooperation 
between the United States and Georgia.
    Our conversations were not limited to the governing United 
National movement, but included representatives from the 
leading Christian Democrats Party and the Free Democrats Party, 
among others.
    We must remember that Georgia is a country in transition. 
It is not perfect. It is still in development, and its 
government is young. However, I believe Georgia is moving in 
the right direction, and its democracy will become one of the 
strongest and most vibrant in the region. It is in the best 
interests of the United States to work and partner with the 
Government of Georgia to encourage and foster a strong 
democracy.
    While in Georgia, I witnessed the progress of reforms, 
including the opening of their market. As many know, Georgia's 
annual foreign direct investment is fast approaching 1 billion 
U.S. dollars, as the country continues to attract international 
investors. For example, the ever-popular Donald Trump was in 
Batumi just this week to announce a major development under his 
Trump brand of properties. I wonder where that guy gets all 
that money. [Laughter.]
    Concerning Georgia's NATO aspirations, it is my belief that 
Georgia is an excellent candidate and deserves to be given a 
membership application plan or another clear path for entry at 
the Chicago Summit. Such action will help facilitate additional 
reforms that the country needs to make.
    Although not tied to membership, NATO countries should 
recognize Georgia's commitment to Afghanistan, where it will 
soon deploy the highest troop level per capita of any 
contributing nation, with no caveats. Many Georgian soldiers 
are deployed in the dangerous Helmand Province, where they 
fight side-by-side with the U.S. soldiers.
    Sadly, just this week a decorated sergeant of the Georgian 
Army lost his life in Helmand Province when an IED destroyed 
his vehicle, and we wish him and his family and the people of 
Georgia the best regarding his loss, and they have our deepest 
sympathy.
    This resolution, H. Res. 526, is a representative of a 
bipartisan effort to recognize Georgia and the progress it has 
made, and symbolizes U.S. support for a young but growing 
democracy. I want to thank Representative Shimkus and 
Representative Schwartz for their efforts in the introduction 
of this resolution. I want to thank Ranking Member Meeks, my 
good buddy, Chairman Ros-Lehtinen, and Ranking Member Berman, 
and their staffs, for their support in this subcommittee's 
efforts to move this resolution.
    I now recognize Mr. Meeks for an opening statement.
    Mr. Meeks. Thank you, Chairman Burton. I want to thank you 
for bringing this resolution to a markup today, and I also want 
to thank you for your flexibility on the language. We have had 
some conversation back and forth, and you and your staff have 
been very flexible in working with us as we try to tweak 
language and get what should be appropriate. So it is always a 
delight working with you, my friend, and it is my delight.
    And it is probably no coincidence that we are marking up 
this resolution in the context of a NATO Summit hearing, as 
Georgia is a NATO aspirant, a country with a strong pro-Western 
orientation, and they have proven themselves very capable and 
reliable allies in Afghanistan and other conflict zones. NATO 
members are bound by a common adherence to democratic norms. 
The Georgian Government's efforts to build on reforms made to 
date, to foster greater political competition, labor rights, 
judicial independence, and media access, will be an opportunity 
for Georgia to prove itself when measured by international 
standards.
    To paraphrase Ambassador-designee Richard Norland's recent 
statement, allowing opposition candidates to campaign and 
compete freely in upcoming parliamentary and Presidential 
elections will bring Georgia closer to Euro-Atlantic standards 
and integration, and facilitate Georgia's NATO aspirations.
    Now, I want to commend the Georgian Government's progress 
on government transparency and fight against corruption, 
political, economic, and judicial reforms, and encourage 
Georgia to continue its modernization process. We have got to 
continue to move. We can never be content. There is always room 
for improvement. And we have got to continue to encourage that 
kind of improvement and democratization.
    And so, as a result of that, as a result of what we see 
happening, as a result we see forward movement. I encourage my 
colleagues to support H. Res. 526, in order to strengthen U.S. 
engagement with the Republic of Georgia, by helping Georgia to 
enhance its security and restore its territorial integrity 
through peaceful means, and supporting the Government of 
Georgia's commitment to a policy of peaceful and constructive 
engagement with the authorities in control of South Ossettia 
and Abkhazia. It is with that that I think we can work 
collectively together, and we can make improvements.
    And we have got to continue, because democracy is always 
something that is a continuing event. We are still working on 
our democracy, here in the United States. No one gets it right. 
So we are still progressing and trying to make sure that we 
continue forward with democratization.
    So with that, Madam Chair, I yield back.
    Ms. Schmidt [presiding]. Thank you, and the Chair will now 
recognize herself for an opening statement.
    First off, I want to thank the committee for demonstrating 
leadership on this very important issue. And it is a bipartisan 
piece of legislation, and toward that end I applaud it.
    But I also want to highlight something beyond just this 
resolution, and that is NATO itself and the Chicago Summit. 
Given the nature of the global environment in which we live, 
and this seemingly never-ending list of rogue states with which 
we must contend, I understand the need for and the support and 
continued existence of a strong and vibrant NATO.
    In fact, in today's world, where friendship and cooperation 
with other nations is so incredibly essential to the successful 
completion of many of our national goals and objectives, 
particularly in the realm of national security, our involvement 
in NATO is as necessary as it was when it was founded on April 
the 4th, 1949, and it is to that end that I look forward to the 
2012 NATO Summit in Chicago this May.
    But unfortunately, my expectations for the summit are low. 
And I say that they are low because it is what is not on the 
agenda that concerns me. What we have missed on this agenda--
intentionally, I think, it is off the agenda--is the issue of 
NATO's expansion. With regard to the matter of membership for 
Bosnia and Herzegovina, Georgia, Macedonia, and Montenegro, the 
administration has been conspicuously quiet. In fact, it looks 
like they are AWOL.
    Perhaps my biggest concern lies with Macedonia itself, a 
good friend to the United States. Although not a member, 
Macedonia has long supported the joint security goals and 
objectives of NATO. The Macedonian military has supported, like 
other countries not in NATO, missions in Afghanistan, Iraq, 
Bosnia, Lebanon, et cetera.
    In 2008, Macedonia completed its membership action plan in 
preparation for its entry into NATO. And yet, because of an 
imprudent decision by a country to unilaterally veto 
Macedonia's admission to NATO, ostensibly on the disagreement 
with what Macedonia wants to call itself, Macedonia remains a 
member in waiting. Apparently article X of the North Atlantic 
Treaty, the so-called Open Door Policy, is not so open.
    In Macedonia, we have a country that has honored and 
fulfilled its requirements for NATO's membership, just as we 
have with other countries. We have a country that has provided 
more support for NATO missions, both in talent and in treasure, 
than many NATO members have themselves, and yet we have a 
country that is desirous of supporting NATO's goals and 
objectives and is denied entry.
    It is not too late, and I hope the Chicago Summit refocuses 
its position and allows for a good dialogue and an expansion 
for its membership.
    I yield back my time.
    Now I would like to recognize Congressman Engel for his 
opening statement.
    Mr. Engel. Thank you, Madam Chairwoman. And let me just 
first of all say, I am delighted to be here. I think the 
subject matter is very, very important, and of course the 
resolution about our friends in Georgia, I am excited to 
support it. I am, coincidentally, going to have dinner with the 
Ambassador, Georgian Ambassador, this evening.
    I have always been a long-standing friend and supporter of 
Georgia, and I am a long-standing supporter of Georgia becoming 
a member of NATO, as are other countries as well, and I hope 
that that will happen. Other countries, as well, such as 
Kosovo, and others who aspire to get in.
    I think the West needs to expand, just as we expanded NATO 
when the Soviet Union fell. I think it is important that we 
continue to expand it, and those countries that want to become 
part of the Western Alliance can become part of the Western 
Alliance.
    I would be remiss--well, let me just say this. We just 
met--many of us had lunch today with Sali Berisha, the Albanian 
Prime Minister, who is in town, and we talked a great deal at 
that luncheon about Albania's successful membership in NATO. 
And I am delighted that Albania is a member of NATO.
    But as we talk about the Chicago Summit and U.S. policy, I 
want to highlight something that is unfolding with regard to 
the Chicago Summit, and that is Turkey's apparent blocking 
Israel from participating in the NATO summit. Israel has long 
participated in the Summit, and has long shown itself to be a 
very loyal and pro-Western ally of both the United States and 
NATO.
    Turkey, which is a NATO member and sadly, in my opinion, 
has not acted like one for a long, long, time, or for the past 
few years at least, is blocking Israel because of a dispute 
with the flotilla incident, where Turkish nationals and others 
tried to illegally blockade the Israeli blockade of Gaza, which 
is legal according to international law. And unfortunately, 
there was a loss of life and Turkey is demanding all kinds of 
apologies for it, while refusing to look at its own culpability 
in the face.
    And I just want to voice my disgust at the Government of 
Turkey for, at least up until now, blocking Israel from 
participating at the NATO Summit in Chicago. It is an 
international disgrace. I think Turkey's actions in cozying up 
to the worst elements are abhorrent. I think that Turkey's 
policies have just been terrible.
    And you know, many of us yesterday attended the Armenian 
rally here in Washington. And it is 100 years after the 
Armenian genocide, and Turkey still refuses to acknowledge it, 
which is another disgrace. So I just want to highlight what I 
unfortunately regard as disgusting Turkish policy. And Turkey 
ought to immediately withdraw its blocking of Israel from 
attending the NATO Summit in Chicago.
    And with that, I yield back.
    Ms. Schmidt. Thank you. And now I yield to recognize an 
opening statement for Congressman Poe from Texas.
    Mr. Poe. Thank you, Madam Chairman. I think the United 
States should reward our international friends, and not reward 
our enemies.
    We have good friends that sent troops to Iraq, and large 
contributors to our mission in Afghanistan, than even some of 
our NATO members sent. In other words, we have folks that sent 
people to Afghanistan that aren't NATO members, and our NATO 
members, some of them, did not come up to the plate as well as 
our non-NATO allies.
    These people, these countries, patrol the ISAF headquarters 
in Kabul, and work alongside our American officers and troops 
in Afghanistan. If they can protect the tent of NATO, they 
should be able to sleep in the tent of NATO, one would think. 
There are enough countries out there that hate us. We give 
billions of dollars every year to Pakistan, and that doesn't 
seem to keep them from hating Americans.
    But here we have countries that tend to like the United 
States. They want to be in NATO. They haven't just talked the 
talk, but they have walked the walk and stepped up when the 
international community needed them. They have met NATO's 
requirements, instituted tough economic and democratic reforms, 
but they are still not in NATO. They have made the hard 
sacrifices. They have fought shoulder to shoulder with our 
troops on the battlefield, but the door to NATO membership 
remains closed.
    This isn't just in our friends' interest. It is in 
America's interest, too, that we open the door. We have the 
opportunity, through mutual defense, to bring peace to unstable 
regions. Where there is peace, we know that economic 
development and prosperity often follows. Trade and foreign 
direct investments start to grow as relationships are made. 
From peace to economic growth, there is a lot on the line for 
us and for our friends.
    I am concerned that NATO's enlargement is not a top 
priority for the United States. It is not even on the agenda of 
the upcoming NATO Summit in Chicago. If our friends do all they 
need to do, and more, to meet NATO's requirements, and don't 
get in, what is the message we are sending them? How long can 
we expect them to wait?
    It kind of reminds me of the days when I would ask a gal to 
a dance, and she would turn me down enough times, I quit asking 
her to the dance. That happened a lot, unfortunately. But it is 
that situation. They keep wanting to go to the dance, and we 
just don't respond in a positive manner. It is time to take 
those friends in, so we can all dance together. The longer we 
take, the more we are risking public opinion turning against 
NATO membership. They will start looking elsewhere for friends 
that really want them to be involved with them. The United 
States may have lost opportunities if we continue to delay, 
delay, delay.
    There are enough countries around the world that don't like 
us. It is about time we start rewarding the countries that do 
actually like the United States.
    And I yield back. Thank you, Madam.
    Ms. Schmidt. Thank you. Hearing no further requests for 
recognition, and no further amendments to the resolution, the 
pending question is on the en bloc resolution and the manager's 
amendment.
    Before I say that, I would like to say that any other 
member that wishes to put remarks into the record will be able 
to do so.
    So, hearing no further requests for recognition, the 
pending question is on the en bloc resolution and the manager's 
amendment.
    Are there any amendments?
    [No response.]
    Ms. Schmidt. No. Okay. All those in favor, say aye.
    [Chorus of ayes.]
    Ms. Schmidt. Any opposed?
    [No response.]
    Ms. Schmidt. In the opinion of the Chair, the ayes have it 
and the en bloc measures are agreed to.
    Without objection, H. Res. 526 is amended, and will be 
reported as a single amendment in the nature of a substitute, 
and the staff are directed to make technical and conforming 
changes.
    I want to thank all of our members and staff on both sides 
of the aisle for the good work and the cooperation that went 
into this markup today. And, having concluded our business, the 
subcommittee is adjourned.
    [Whereupon, at 2:52 p.m., the subcommittee proceeded to 
other business.]
                                     

                                     

                            A P P E N D I X

                              ----------                              


         Material Submitted for the Record<greek-l>Notice deg.
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>




               <F-dash>\\<careof><Rx><brit-pound>t<box>s\
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>


          <F-dash>\<diamond><brit-pound><natural>t<pound><Rx> 
                      stat<box><acctof><box><Rx>\
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>


                                 <all>

</pre></body></html>
